                            Office of the Inspector General
                   Corporation for National and Community Service


                           Pre-Audit Survey Report of the
                    Alaska State Community Service Commission


                           OIG Audit Report Number 00-24
                                  March 24,2000




                                         Prepared by;
                                   Urbach Kahn & Werlin, PC
                                   1030 Fifteenth Street, N.W.
                                    Washington, D.C. 20005

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                     Contract # 5-9-G-8-0024
                                     Task Order B9G9X103



This report was issued to Corporation management on August 8,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
February 5, 2001, and complete its corrective actions by August 8, 2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                             CORPORATION
                                 Office of Inspector General                                  FOR N A T I O N A L
                       Corporation for National and Community Service

                                   Pre-Audit Survey of the
                         Alaska State Community Service Commission
                               OIG Audit Report Number 00-24


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. In most cases, AmeriCorps programs are not subject to
compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we issue
a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin, PC to perform the pre-audit survey of the Alaska State
Community Sewice Commission. Based on the suwey procedures performed, UK W concludes that
the Commission appears to have an adequate pre-award selection process and adequate controls
over training and technical assistance. However, UKW indicates that the Commission's fiscal
administration and monitoringprocesses are not adequate. Consequently, UKWrecommends afull-



                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20Fi25
scope audit of CNS funding from 1995 through the present. UKW also recommends that the
Corporation follow up with the Commission to determine that appropriate corrective actions have
been put into place.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented.

We provided a draft of this report to the Alaska Commission and to the Corporation for comment.
The Alaska Commission's response (Appendix C) describes corrective actions taken in response to
the survey findings. The Corporation's response (Appendix D) indicates that the Corporation plans
to request semi-annual reports from the Commission on its corrective actions and that the
Commission will be included in the Corporation's administrative review process.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                       Pre-Audit Survey Report of the
                                Alaska State Community Service Commission


                                                        Table of Contents


Pre-Audit Survev Report

  Results in Brief ..................................................................................................................   1

  Background ........................................................................................................................ 2

  Overview of the Alaska Commission ...............................................................................                     3

  Objectives, Scope and Methodology ................................................................................. 4

  Findings and Recommendations ........................................................................................5


A~pendices

  Appendix A - Alaska Commission Funding - 1995 through 1999 .................................12

  Appendix B - Detailed Engagement Objectives and Methodology ....................... ......... 17

  Appendix C - Alaska Commission Response .................................................................. 20

  Appendix D - Corporation Response ............................................................................... 25
UK Urbach Kahn & Werlin PC
6hXI CERTIFIED PUBLIC ACCOUNTANTS

        Inspector General
        Corporation for National and Community Service

        At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Alaska
        State Community Service Commission. The primary purpose of this survey was to provide a
        preliminary assessment of:

               the adequacy of the pre-award selection process;

               the fiscal procedures at the Commission;

               the effectiveness of monitoring Alaska State subgrantees, including ArneriCorps
               Member activities and service hours; and

               the controls over the provision of training and technical assistance.

        We were also asked to report on the recommended scope of additional audit procedures to be
        performed at the Alaska Commission.

        RES ULTS IN BRIEF

        Based on the results of the limited procedures performed, we have made the following
        preliminary assessments regarding the Commission's systems for administering grants
        received from the Corporation.

           The Commission appears to have an adequate pre-award selection process to select
           national service subgrantees and related systems and controls appear to be functioning as
           designed. However, we identified areas for improvement related to the retention of
           specific documentation to support the selection process.

           The Commission does not have an adequate process in place for the fiscal administration
           of grants.

           The Commission does not have adequate controls in place to evaluate and monitor
           subgrantees.

           The Commission appears to have adequate controls in place to provide reasonable
           assurance that training and technical assistance are made available and provided to
           subgrantees.




                                                              -1-
                      1030 Fifteenth Street NW, Washington, M= 2 0 5 (202) 296-2020 FAX (202) 223-8488
                                      An Independent Member of Urbach Hacker Young lnrernational
Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the funds awarded to the Alaska Commission for 1995 through the current
program year. Procedures should also include verification of reported Member service hours
and matching amounts by subgrantees. In addition, we recommend that the Corporation
follow up with the Commission to determine that appropriate corrective actions are put in
place to address the conditions reported herein and that the Corporation consider these
conditions in its oversight and monitoring of the Alaska Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
Stute/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to AmeriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
0VERVIEW OF THE ALASKA COMMISSION

The Alaska State Community Service Commission is currently headquartered in Anchorage,
Alaska. The Commission was headquartered for a brief period of time in Alaska's capital,
Juneau. The Commission was housed under the Department of Community and Regional
Affairs from its inception in 1994, until June 1999, at which time the Department was
dismantled. The Commission was then briefly transferred to the Department of Labor
between July 1999 and November 1999, until it was subsequently transferred to the
Department of Education and Early Development.

The Commission reported that it received funding from the Corporation totaling $ 1,374,588
in 1995; $ 1,324,327 in 1996; $ 1,429,101 in 1997; $ 994,183 in 1998; and $ 1,146,875 in
1999. Additional information on the Comrnission7s funding is presented in Appendix A. The
Commission currently has one full-time Executive Director and a part-time secretary. The
Commission requested and obtained the use of an Internal Auditor with the Department of
Community and Regional Affairs during the 1995 through 1998 program years.

As part of the State of Alaska, the Commission is included in the state's annual OMB
Circular A-133 audit under the Department of Community and Regional Affairs. There have
been no major questioned costs or findings identified within DCRA, which directly affect
Corporation funds received by the Commission. However, it has not been considered or
tested as a major program.

The Commission provided the following information regarding subgrantee A- 133 audits:

                  Total Amount of                                   Number of
                   Corporation                                  Subgrantees Subject
                       Funds             Number of                To A-133 Audit
Propram Year        Subwanted           Subwantees                Requirements




Determination of the number of subgrantees subject to OMB Circular A-133 audit
requirements is based on information received from the Commission and the dollar value of
federal awards passed through the Commission during the program year, as well as our
review of the subgrantee A-133 audit reports. Other subgrantees could be subject to an OMB
Circular A-133 audit if additional federal funds were received from other sources during the
program year.
OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Alaska State subgrantees, including AmeriCorps
       Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on March 24,2000.
Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not,
perform an audit of any financial statements, and the procedures described above are not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts and grants. Accordingly, we do not express an opinion
on any such financial statements or on the Commission's controls and compliance. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

We provided a draft of this report to the Alaska Commission and the Corporation for
National and Community Service. The Commission's and the Corporation's responses to our
findings and recommendations are included as Appendix C and Appendix D, respectively.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." Current Commission procedures indicate that
the Alaska Commission has developed various procedures to comply with this requirement.
The Commission advertises the availability of funds through the following mediums: letters
are sent to all applicants maintained in a Commission database; advertisements are placed on
the Commission's web-site, and in Alaska's three major newspapers. The Commission then
holds public grant information meetings and technical assistance conference calls to discuss
application and Corporation guidelines. Those applicants still interested are asked to submit
Intent to Apply forms.

New applicants complete these forms, which provide limited information on the program,
including number of potential members; program objectives; and specific information
relating to the key contact person.

The Review Panel reviews each form and completes peer review and team ranking sheets.
Commission personnel categorize the forms according to recommendations and evaluate each
applicant's strengths and weaknesses. Approved applicants then attend a one-day technical
assistance session to gain information relating to the required comprehensive AmeriCorps
applications.

Commission personnel review these applications, as well as evaluate the financial systems in
place at each subgrantee and results of recent audits. At the conclusion of the review, the
Commission compiles their recommendations and submits them to the Corporation.

For renewal applicants, the Commission reviews quarterly progress reports, proposals for the
future, as well as the budget submission for the upcoming year.
      While we believe the documentation maintained by the Commission to support the selection
      process is adequate; we have identified the following areas for improvement.

                  The Commission did not maintain signed conflict of interest forms
                                          as required.

      Section 3.6 of the Reference Manual for Commission Executive Directors and Members
      states "Commissions should strive to achieve the greatest objectivity and impartiality
      possible in the review and selection of grantees in the state." The section continues to state
      "As defined by the Act, a Commission member or review panel member is considered to
      have a conflict of interest if the member is currently, or was within one year of the
      submission of a grant application to the Commission: an officer, a director, a trustee, a full-
      time volunteer or an employee of an organization submitting a grant application to the State
      Commission."

      Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the
      member must recuse himselflherself from the Commission's administration of the grant
      program, including such activities as any discussions or decisions by the Commission
      regarding the provision of funds or education awards to any program or entity funded under
      the same funding category.  "




      The Commission was unable to provide us with conflict of interest forms signed and dated
      during 1995 and 1998.

      Because the Commission could not provide all signed and dated conflict of interest
      statements, we were unable to determine whether conflict of interest statements were
      properly completed by all Commission and grant review panel members during the grantee
      selection process and whether the individual reviewer lacked a conflict of interest.

      We recommend that the Commission actively check for conflicts of interest and enforce
      current policies and procedures requiring that signed and dated conflict of interest forms are
      maintained for each grant applicant on file in accordance with the Corporation requirements.

                     Some documentation to support grant decisions was missing.

      The Commission was unable to locate the following information:

          Documentation supporting one rejected applicant during 1995;
          Documentation supporting verbal withdrawal of one applicant during 1998; and
          Merit ranking form used to evaluate one subgrantee during 1998.




IJK
We recommend that the Commission enforce current policies and procedures requiring the
retention of documentation to support the selection or rejection of subgrantees.

             Lack of documentation supporting the assessment of subgrantee
               applicants' Financial Systems during the selection process

According to A Reference Manual for Commission Executive Directors and Members,
Section 4.2, Commissions are responsible for maintaining "appropriate financial management
systems to disburse funds and track Commission and program expenditures according to
legal and grant requirements." In order to comply with this requirement, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, since this information forms the basis of a majority of the Commission's
expenditure reporting.

The Commission stated that all audit reports were obtained, reviewed by the internal auditor
and the Executive Director, and this information was forwarded to the review panel to aid in
their decision-making. However, the Commission could not provide us with documentation
to support this assertion and review of the application review forms did not indicate that a
review was done.

The grant application form provided by the Corporation does not specifically address the
applicant's financial systems. In addition, Commission selection procedures do not require
Commission personnel to request information from the applicants related to their financial
systems or to otherwise assess an applicants' financial system. As a result, grant funds may
be provided to an organization that does not have financial systems in place to properly
account for the Corporation funds received or to ensure compliance with related
requirements.

We recommend the Commission evaluate and document the adequacy of the applicants'
financial systems during the selection process to ensure that applicants have systems in place
to properly account for grant funds and comply with related grant requirements.

Administration of Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" (A Reference Manual for Commission
Executive Directors and Members, Section 4.3). Based on the results of our testing, we
identified the following areas for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.
              Lack of evidence of Financial Status Report review, including
                                 matching recalculation.

Commission procedures indicate that subgrantee Financial Status Reports are reviewed, and
matching requirements, recalculated. However, no evidence exists to document that this
review was performed.

As discussed in the Overview section above, the Commission requested and obtained the use
of an Internal Auditor, with the Department of Community and Regional Affairs, during the
1995 through 1998 program years, to evaluate subgrantees7 compliance with fiscal
requirements. Commission procedures indicate that during site visits, the Internal Auditor
would verify match amounts reported on their FSRs to the subgrantees' financial system, and
select a random sample of transactions and trace them to supporting documentation.
However, Commission personnel could not provide us with the internal auditor's workpapers
to support this review was performed.

We also identified one subgrantee that appeared to have had trouble meeting their match for
1995 through 1997. During our pre-audit survey, we identified and reviewed information
regarding the Southeast Alaska Guidance Association, otherwise known SAGA. The internal
auditor contacted SAGA after reviewing their 1995 audit report, which revealed SAGA'S
debt to the Internal Revenue Service for $35,000 in payroll taxes, penalties, and interest. On
May 14, 1997, records indicate that the Department of Community and Regional Affairs filed
a formal incident report with the Office of the Inspector General for the Department of Labor
and the Corporation for National Service. SAGA paid the remaining balance of the principal
to the IRS on June 16,1997.

As a result of this situation, Commission personnel increased discussion with SAGA and
SAGA contracted a consulting firm to strengthen their internal controls and improve their
management practices of the various programs and projects they administer and operate with.

Although supporting documentation was not provided by SAGA, our review of their 1998
and 1999 FSRs indicated that SAGA reported meeting their match.

Our review also identified the following errors:

   Two of forty-six FSRs in which the previously reported amount was not carried forward
   accurately;

   Three FSRs which were not mathematically accurate;

   Two FSRs did not include the correct "Total Federal Funds for that period"; and
   One FSR where the amounts reported for recipient and federal outlays did not agree to
   the amount reported as total outlays.

We also could not determine whether Commission personnel compare FSRs to subgrantees'
accounting systems or other supporting documentation during site visits, since Commission
personnel could not locate the internal auditor's workpapers.

Because of these conditions, errors on the FSRs may occur and remain undetected. If
subgrantee FSRs are not agreed to the subgrantees' accounting system, then there is an
increased risk that subgrantees are incorrectly reporting amounts on their FSRs and the
Commission lacks reasonable assurance that subgrantees are correctly reporting amounts on
their FSRs.

We recommend Commission personnel develop standard procedures to review subgrantee
FSRs, recalculate matching requirements and to document the results of this review. Also,
the Commission should implement site visit monitoring procedures that require the
reconciliation of the subgrantees' FSRs to the subgrantees' accounting records along with
other supporting documentation (e.g. invoices).

                       Late submission of Financial Status Reports

AmeriCorps Provision 17 (i) states "AmeriCorps State programs and most AmeriCorps
National sites that receive subgrants must submit at least four Financial Status Reports (SF
269 a) to their respective State Commission or Parent Organization." It continues to state
"State Commissions and Parent Organizations are required to forward Financial Status
Reports from programs and budgeted sites to the Corporation's Grants Office 30 days after
the close of each calendar quarter."

Our testing identified five instances where subgrantees did not submit FSRs to the
Commission in accordance with Corporation guidelines. In addition, we could not determine
the timeliness of one FSR because the FSR was signed prior to the end of the period reported
on the FSR.

We recommend that the Commission enforce current policies and procedures requiring the
submission of FSRs in accordance with Corporation guidelines.

             The Commission uses their drawdown requests to compile FSRs
                            submitted to the Corporation.

The Commission compiles the AmeriCorps programs FSR for submission to the Corporation,
based on the Alaska State systems record of drawdown requests. Therefore, Commission
FSRs are not compiled based on the expenditures reported on the subgrantee FSRs received
by the Commission. Corporation guidelines do not specify whether expenditures should be
reported on the cash or accrual basis of the Commission's books, or the subgrantees' books.
Because the subgrantees' FSRs were not used to compile the Commission FSRs, we were
unable to verify the expenditures submitted by the Corporation on the Commission FSR.

Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

We identified the following areas for improvement related to the evaluation and monitoring
of subgrantees.

            The evaluating and monitoring system for subgrantees needs to be
                             improved at the Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D tj 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved."

During our review of monitoring files for subgrantees, we determined that certain
information was not included in the site visit documentation. Specifically, the names of the
Member files reviewed, identification of Member files where exceptions were identified, and
the procedures followed to select the Members reviewed were not included. There was no
documentation that member service hours reported to the Commission were traced back to
the timesheets to verify the existence of the hours reported. In addition, the Commission does
not review the list of suspended or debarred vendors at the subgrantee level.

The prior Executive Director stated that these procedures were performed by the Internal
Auditor. However, the Commission could not locate these records and workpapers for our
review. This lack of specific documentation prevented us from determining the adequacy of
the monitoring procedures performed by Alaska Commission personnel.

In addition, the prior Executive Director also indicated that the Internal Auditor's position
was cut for the Department of Community and Regional Affairs and the Alaskan legislature
eliminated funds for all state travel during 1998. As a result, no site visits were performed
during the 1998 program year.

We recommend that the Commission revise its policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow up on findings and recommendations, if
any). This will allow the Corporation to assess the Commission's oversight of subgrantees
when it performs its planned Commission administrative reviews.
In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.

                                 Review of Audit Reports

The Executive Director asserted that the Internal Auditor and Executive Director reviewed
subgrantee A-133 reports and that documentation of the review was maintained to support
findings noted in the reports. However, as discussed above, Commission personnel could not
locate documentation to support this review. We reviewed documentation to support the
finding of one subgrantee A-133 audit report and did not identify additional findings during
our review of the remaining other subgrantee A-133 reports. In response to our finding,
Commission personnel stated that they will implement a checklist to document the review of
all A-133 audit reports regardless of content found within the report.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees.

However, the Commission could not provide us with a comparison of budget and actual
PDAT expenditures for 1999. In addition, the Executive Director stated that the Alaskan
legislature cut off all state travel during 1998 and therefore the Executive Director was not
allowed to perform site visits to subgrantees outside of Anchorage or attend the
Corporation's annual conference in Washington, DC.



This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the Alaska
State Community Service Commission, and the United States Congress and is not intended to
be and should not be used by anyone other than these specified parties.




Washington, DC
March 24, 2000
APPENDIX A              - ALASKA              COMMISSION FUNDING




                                         CORPORATION FOR NATIONAL AND COMMUNllY SERVICE
                                             FUNDING TO THE ALASKA STATE COMMISSION
                                                               1995




                                           TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                            $1,374,588




                                                    FUNDS AWARDED TO SUBGRANTEES
                                                              $1,126,000




                                                                                       AMERICORPS
                                                                                       COMPETITIVE
                                                                                         $850,000

                                                  MATCH                                    MATCH
                                                 $161,959                                 $603,201

                                               TOTAL # OF                                TOTAL # OF
                                                 SUBS.
                                                   2

                                               TOTAL # OF                                TOTAL # OF
                                                 SITES                                     SITES
                                                   11



Total Carryovers for 1995 (Not included in the current year funding amounts above).

AmerCorps           $
Admm                $       2,910
PDAT                $



"   Disability funds included in grant award and $10,000 in initial PDAT funds awarded under the Administrative grant


NOTE: The Alaskan Commission did not receive Learn and Serve funds from 1994 through the date of t h ~ sreport
APPENDIX A - ALASKA COMMISSION FUNDING




                  AMERICORPS
                   FORMULA
                     FUNDS
                    $300,327

                       MATCH
                                    -        T-1
                                            CORPORATiON FOR NATIONAL AND COMMUNITY SERVICE
                                                FUNDING TO THE ALASKA STATE COMMISSION




                                                       I

                                                   $950.000

                                                   MATCH.
                                                                  1996




                                                                                                  A
                                                                                                        I
                                                                                                  ADMINISTRATION
                                                                                                     FUNDS "
                                                                                                      $74,000


                                                                                                     MATCH
                       $159,537                   $1,317,355                                         $26.000




                                                      1
                                                 TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                  $1,324,327




                                             r
                                                                          +
                                                           FUNDS AWARDED TO SUBGRANTEES
                                                                     $1,250,327




                                                 AMERICORPS
                                                  FORMULA                           COMPETITIVE
                                                   $300,327                           $950,000

                                                    MATCH                             MATCH
                                                   $159,537                          $1,317,355

                                                  TOTAL # OF                        TOTAL # OF
                                                    SUBS                              SUBS.
                                                      2

                                                  TOTAL # OF                         TOTAL # OF
                                                    SITES                              SITES:
                                                      13




Total Carryovers for 1996 (Not included in the current yearfundlng amounts above)

Amer~Corps         $
Adrnln             $       51,000
PDAT               $       62.500


     No new funds were issued, only carryover funds were used
'^   Disablllty funds lncluded in grant award
APPENDIX A - ALASKA COMMISSION FUNDING




                                      CORPORATION FOR NATIONAL AND COMMUNTIY SERVICE
                                          FUNDING TO THE ALASKA STATE COMMISSION




                                         +
                                                            1997



               +
        AMERlCORPS                          AMERlCORPS
                                                              -
                                                                                                          ADMINISTRATION
         FORMULA                            COMPETITIVE
           FUNDS                               FUNDS
          $307,826                            $972,775

            MATCH                               MATCH                          MATCH                         MATCH
           $209,028                            $902,689                       REQUIRED                       $57,000
                                                              -                                   I   I



                                                   1                                 v
                                          TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                           $1,429,101

                                                                     I



                                                 FUNDS AWARDED TO SUBGRANTEES
                                                           $1,280,607




                                           A
                                           AMERICORPS                               AMERlCORPS
                                               FORMULA                              COMPETITIVE
                                                $307,826                              $972,775

                                                 MATCH                                 MATCH
                                                $209,028                              $902,689

                                              TOTAL # OF                             TOTAL # OF
                                                SUBS
                                                    2

                                              TOTAL # OF                             TOTAL # OF
                                                SITES.                                 SITES
                                                  16




Total Carryovers for 1996 (Not ~ncludedin the current year funding amounts above)

AmeriCorps         $
Adm~n              $     15,290
PDAT               $     62,500


"   D~sab~lity
           funds ~ncludedIn grant award
APPENDIX A - ALASKA COMMISSION FUNDING




                                      CORPORATION FOR NATIONAL AND COMMUNTIY SERVICE
                                          FUNDING TO THE ALASKA STATE COMMISSION
                                                            1998



    '
        AMERICORPS
                                        1
                                  AMER~CORPS
                                                                     1
                                                                 ED ONLY                       PDAT
                                                                                                    1             1
                                                                                                            ADMINISTRATION
                                                                                                               FUNDS "
         FORMULA                  COMPETITIVE                     FUNDS                       FUNDS
          FUNDS.                     FUNDS.                       $12,370                     $66,500             SO*
          $330,390                  $584,923
                                                                                                NO
           MATCH-                     MATCH.                      MATCH                       MATCH            MATCH
          $239,480                   $839,047                       $0                       REQUIRED            $0




                                        v                            w                              v
                                                                                                        I
                                         TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                           $994,183



                                                                    1
                                                  FUNDS AWARDED TO SUBGRANTEES
                                                            $915,313




                                                FORMULA                         COMPETITIVE-
                                                 $330,390                         $584,923

                                                 MATCH                            MATCH
                                                $239,480                          $839,047

                                              TOTAL # OF                    /    TOTAL# OF
                                                                                   SUBS
                                                                                                1
                                                    2

                                              TOTAL # OF
                                                SITES
                                                  17




Total Carryovers for 1996 (Not included in the current year fund~ngamounts above)

Amer~Corps           $   90,077
Admln                $   77,394
PDAT                 $   17,500


    No new funds were ~ssued,only carryover funds were used
"   D~sabllltyfunds mcluded In grant award
APPENDIX A - ALASKA COMMISSION FUNDING




                                          CORPORATION FOR NATIONAL AND COMMUNTIITY SERVICE
                                              FUNDING TO THE ALASKA STATE COMMISSION
                                                                1999




   I   AMERICORPS
        FORMULA
         FUNDS:
                     -                      1
                                       AMERICORPS
                                       COMPETITIVE
                                          FUNDS
                                                                                                        ADMINISTRATION


         $344,147                        $700,000

         MATCH                            MATCH                    MATCH                      MATCH        MATCH
        $289,917                         $658,592                                            REQUIRED
   I




                                            v                         w                            v
                                                TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                 $1,146,875




                                   I                   FUNDS AWARDED TO SUBGRANTEES
                                                                 $1,044,147




                                                  AMERICORPS                            AMERICORPS
                                                   FORMULA-                             COMPETITIVE
                                                    $344,147                              $700,000

                                                      MATCH'
                                                     $289,917

                                                    TOTAL # OF
                                                      SUBS:                                SUBS:
                                                                                             2

                                                    TOTAL # OF                           TOTAL # OF
                                                      SITES                                SITES
                                                                                             29




   Total Carryovers for 1996 (Not Included in the current year fundmg amounts above).

   ArneriCorps        $
   Admn               $     28,152
   PDAT               $     20.394


   " Disab~lityfunds mcluded In grant award
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY



Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following items to ensure compliance
with Part 6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-
133, Audits of States, Local Governments, and Non-Profit Organizations: overall control
environment; activities allowed or unallowed and allowable costs; cash management;
eligibility; equipment and real property management; matching; period of availability of
Corporation funds; procurement and suspension; debarment; program income; and reporting
by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually, and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJEC JIVES AND METHODOLOGY



Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support the oversight of subgrantees and their required reporting
       to the Corporation (including Financial Status reports, enrollment and exit forms);
       and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY



       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match);

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities, which were made available to all
subgrantees.
APPENDIX C - ALASKA COMMISSION RESPONSE




         ALASKA STATE COMMUNITY SERVICE COMMISSION




                RESPONSE TO THE PRE-AUDIT SURVEY REPORT
                                    From the
                        Office of the Inspector General
                          OIG Audit Report #00-24




                            JULY 15,2000
APPENDIX C   - ALASKA        COMMISSION RESPONSE




         INTRODUCTION

         The Alaska State Community Service Commission is hereby responding to the
         Report of the Pre-Audit survey performed in March of this year by the firm of
         Urbach Kahn & Werlin. The two auditors conducting the fieldwork were Jennifer
         Prevost and Kristin Vanwagoner. They were both cordial and professional as
         they sought the information they needed from us during the pre-audit process.
         They were present in our offices from March 20" - March 24h. The week
         following the pre-audit survey we arranged phone conferences between the
         auditors and our program directors and continued to locate and fax additional
         information per their request.

         Alaska has had three major sub-grantees operating our AmeriCorps programs:
         RurAL CAP, a statewide non-profit located in Anchorage. Nine-Star, a large non-
         profit with a focus on Literacy also located in Anchorage, and SAGA a program
         with an environmental and personal development focus for at-risk youth located
         in Juneau. The Commission just recently approved a new sub-grantee: the
         Network on Domestic Violence and Sexual Abuse. They are headquartered in
         Juneau but have shelters throughout the state for victims and their children.

         Our programs are well respected in the communities they serve. We are also well
         supported by the state with the Lt. Governor chairing the Commission and by
         our location in the Department of Education & Early Development. The Deputy
         Commissioner of Education & Early Development serves as a member of our
         Commission and as chair of the Programming Committee.

         We have had some difficulty with our record keeping system because of the
         elimination of the Department of Community and Regional Affairs (our former
         home). The first place of residence for the Commission after the reorganization
         was the Department of Labor from July through November of 1999. In
         November the Commission moved to the Department of Education and Early
         Development where we currently reside. This issue is mentioned in the Pre-
         Audit Survey Report overview of the Alaska Commission, but the extensive
         impact of the move is hardly evident from the minor attention given to the issue.

         In reality, most of the areas in which the audit team found the Alaska
         Commission lacking were in whole or in part due to this move from department
         to department in 1999. Also, in the fall of 1999 the Executive Director resigned
         and the position remained vacant until March of 2000. This fact also
         compounded the record-keeping problem.
APPENDIX C   - ALASKA         COMMISSION RESPONSE




         The Pre-Audit Survey Report states that the Commission has two full time staff;
         the Executive Director and a Secretary. At the time of the audit survey that was
         not quite true. The Secretary is paid through the Department of Education &
         Early Development and has duties other than just clerical assistance to the
         Executive Director.

         On June 1" we added a Project Assistant to the Commission staff. She is a
         professional staff person fully capable of helping with program monitoring
         and compliance issues. We have undertaken a major organization of our grant
         records and program files. We are also reviewing and revamping our policies
         and procedures in order to more effectively manage our Amencorps grants.
         We are giving special attention to the paper trail that can demonstrate that
         improved management. We now really do have two full time staff people in
         addition to the services of a clerk and the financial management staff of the
         Department of Education and Early Development.

         RESPONSE TO FINDINGS
         'The Commission did not maintain signed conflict of interestforms as required.

         Although the Commission was unable to provide specific conflict of interest
         forms for '95 and '98 there has been an on-going effort to maintain objectivity
         and impartiality in the review and selection of grants. For example, early in the
         Commission's history the former Executive Director recommended that one of
         the commission members resign because he was also a sub-grantee program
         director. The member and commission agreed and he did so.

         Unfortunately, the Executive Director was under the impression that the
         Governor's office, in appointing members of the Commission, had each new
         member sign a conflict of interest form. However, the Alaska State Community
         Service Commission is not subject to that requirement in Alaska statute, so the
         governor's office does not perform that function. Some commission members
         who are state employees do have conflict of interest disclosure forms on file
         because they are required for their jobs in state government, but that would not
         have covered the whole commission. In spite of this misunderstanding early in
         the Commission's history we are now clear that maintaining these records is our
         responsibility.

         We now have on file a conflict of interest statement from each member of the
         Commission. Those statements will be updated annually. Grant review panel
         members who are not members of the Commission will be asked to complete
         that same form at the time they are asked to serve on the Review Panel. I've
         enclosed a copy of the mailing to the Commission members and the form we
         are using.
APPENDIX C - ALASKA COMMISSION RESPONSE




        *Some documentation to support grant decisions was missing

        Three specific examples were bulleted here to demonstrate this finding. As
        earlier stated in this response we are fully aware of the miserable shape our files
        were in as of March of this year. In our work to rectify that situation we have
        found one of those three missing documents. It is attached.


        'Lack of documentation supporting the assessment of subgrantee applicants'financial
        systems during the selection process

        From almost the very beginning of the Commission's existence we have had only
        three sub-grantees providing the AmeriCorps state and national grants within
        Alaska. With continuing programs, their financial status is (or should be) under
        constant scrutiny through the required reporting to the Commission and
        Corporation. It is not so much that financial systems weren't assessed, but that
        the assessment process for continuing grantees was done outside of the selection
        process. With the inception of our new program this spring we had a chance to
        look at that procedure differently. It is clear that the information provided by
        an organization's audit is valuable to the reviewers - we will make that a
        required attachment to the grant application in the future.


        *Lack of evidence of Financial Status Report review, including matching recalculation

        We have instituted a procedure for FSR review and are currently using it. As
        the Executive Director I am the person reviewing them, but due to my limited
        experience in accounting 1 am also relying on the Finance Manager to double-
        check that review at this time. A copy of the FSR review is attached.


        'Late submission of Financial Status Reports

        With the move to the Web Based Reporting System we look for this situation to
        improve. However, the transition may temporarily cause the problem of timely
        submission of reports to be worse. There is some confusion on the part of
        program people as to the WBRS procedures and not all of the financial officers of
        the program have been trained to date. This area as well as all reporting issues
        will b e discussed in each of the program site visits this summer and fall.


        'The Commission uses their drawdown requests to compile FSR ' s submitted to the
        Corporation.
APPENDIX C - A/! ASKA COMMISSION RESPONSE




         All FSR's are prepared on a cash basis, based on actual expenditures, not
         drawdown requests, from reports generated by the Alaska State Accounting
         System (AKSAS). Only actual disbursements made and cleared through AKSAS
         to the subgrantees, during the reporting period, are reported on the Commission
         FSR. Expenditures reported on the subgrantees' FSR are not reported as
         expenditures on the Commission's FSR unless the actual disbursements have
         been made out of AKSAS during the reporting period, as AKSAS is a cash-based
         system, not an accrual-based program.


         'The evaluating and monitoring systemfor subgrantees needs to be improved at the
         Commission

         Program evaluation and monitoring are direct duties of the Executive Director.
         From the extensive notes and copies of communication between the Commission
         office and the programs it is clear that there was comprehensive and ongoing
         monitoring of our programs by the former Executive Director. 1 intend to
         continue and improve upon the evaluation and monitoring with formal site
         visits, plenty of day-to-day e-mail and telephone communication, and
         opportunities to meet especially for training and technical assistance. To this end
         we have added the additional program staff person at the Commission to make
         this increased contact possible.

         While there will always be room for improvement in evaluation and monitoring,
         it is certainly not an area that w e ignore. We have excellent and effectwe
         programs. We will try to maintain and improvc thcrn through consistent, helpful
         monitoring and evaluation.

         CONCLUSION

         The Alaska State Community Service Commission has undergone tremendous
         change in the last year. The move from department to department caused
         serious record keeping and accounting problems. We are constructively
         dealing with those issues and believe we are heading in the right direction. We
         are now located in the Department of Education & Early Development where
         we are substantially supported both financially and programmatically. Since I
         began as the Executive Director just this past March I am still in a learning
         mode. However, I have an excellent background as a former educator and state
         senator to help the members of the Commission in their efforts to achieve
         excellence in the area of community service and volunteerism. With the Lt.
         Governor of Alaska chairing the Commission and with a new program staff
         member on board we are positioned to make improvements in our operation
         and expansion of community service in Alaska.
APPENDIX D        - CORPORA TION RESPONSE




                                                               CORPORATION
                                                               FOR NATIONAL
            MEMORANDUM


            TO:                  Luise S. Jordan                        t



            THRU :               Anthony        2
                                               M U S I C ~ ~.  w
            FROM:
                                 Bruce H. Cline

            DATE:                June 30,2000

            SUBJECT:             Response to the Draft Audit Report 00-24 Pre-Audit Survey of the
                                 Alaska State Community Service Commission


            We have reviewed the draft report on your pre-audit survey of the Alaska Commission.
            Given the nature of the report, this response serves as our proposed management
            decision. We note that your preliminary assessment recommends a full-scope financial
            audit at the Alaska Commission for 1995 through the current program year. The draft
            audit report includes the following recommendation to the Corporation:

                       "Additionally, we [the Inspector General] recommend that the Corporation follow
                       up with the Commission to determine that appropriate corrective actions are put
                       into place to address the conditions reported herein, and that the Corporation
                       consider these conditions in its oversight and monitoring of the Alaska
                       Commission."

              Some of the conditions cited in the "results in brief' section of the report include
              concerns related to retention of specific documentation to support the selection of
                                   -
              national service subgrantees.  It was also noted that the Commission does not have an
              adequate process in place for the fiscal ?dministration of grants and there are inadequate
              controls in place to evaluate and monitor subgrantees.

              Given our limited program administration resources, we 'developed a plan to assess State
              Commission administration functions. Over a three-year period, we will be reviewing
              each of the state commissions. As part of our follow-up with Alaska, we will determine
              whether the Commission has put appropriate corrective actions in place for conditions
              noted in the pre-audit survey that your office has issued.

              In addition to this scheduled review, we will also request that the Alaska Commission
              provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
              audlt survey                                                                       -
                                                                                                  --
                                                                                                   r   r                 7
                                                                                                                             ---
                                                                                                                             ,   '



                                                                                                                    --           I
                                                                                                                                 I


                                                                                                  L - - - - - - r


      NATIONAL SERVICE: G E l l l N G THINGS DONE                           1201 New York Avenue, N W Waslungton,D C 20525
                 .
      ~ m e n c o r p Leom and 5mrAmenco   .
                                           NottonalSvntor Smnce Corps       telephone 202-606 5000 ~ebllk*rxn2110ndsenl~e  0%
